No. 19-7
_____________
IN THE
SUPREME COURT OF THE UNITED STATES

Seila Law LLC,

Petitioner,
v.
Consumer Financial Protection Bureau,

Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

MOTION OF THE UNITED STATES HOUSE OF REPRESENTATIVES
TO PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT

Pursuant to Rules 28.4 and 28.7 of the Rules of this Court, the United States
House of Representatives respectfully moves that it be granted leave to participate
in the oral argument in this case as amicus curiae supporting the judgment below
and that it be allocated ten of the thirty minutes the parties have proposed to allocate
to the Court-appointed amicus. The Court-appointed amicus takes no position on this
motion, but has no objection to any allocation of time the Court deems helpful.
Petitioner and the Solicitor General take no position on this motion.

1.

Like the heads of many other independent agencies, the Director of the

Consumer Financial Protection Bureau (CFPB) may be removed by the President
only for “inefficiency, neglect of duty, or malfeasance in office.” 12 U.S.C. § 5491(c)(3).
This case presents the question whether that removal protection violates the
separation of powers. Petitioner, joined by the Solicitor General, asserts that it does.
In so doing, petitioner urges this Court to overrule Humphrey’s Executor v. United

States, 295 U.S. 602 (1935), and its other decisions upholding for-cause removal
protections. Petr. Br. 31-34. Petitioner also argues that the asserted defect in the
Director’s removal protection requires the invalidation of all of Title X of the DoddFrank Act, the portion of the statute creating the CFPB. Id. at 41-47.
2.

As the House’s amicus brief demonstrates, it has several compelling

interests in this Court’s resolution of those issues.
First, like the Court itself, the House has an interest in avoiding the
unnecessary adjudication of sensitive separation-of-powers questions like the one
petitioner and the Solicitor General urge the Court to decide. “[J]udging the
constitutionality of an Act of Congress is ‘the gravest and most delicate duty that this
Court is called on to perform.’ ” Nw. Austin Mun. Util. Dist. No. One v. Holder, 557
U.S. 193, 204 (2009) (citation omitted). As the House’s brief explains, the Court need
not undertake that weighty task here because its answer to the constitutional
question will have no effect on the outcome of this case.
Second, if the Court does reach the issue, the House has a vital interest in
defending the constitutionality of the CFPB Director’s removal protection. The House

2

always has an interest in defending the validity of the laws it passes. That interest is
at its zenith here because the Solicitor General, on behalf of the CFPB, has declined
to defend the statute and instead joins petitioner in attacking it. This Court has long
recognized that “Congress is the proper party to defend the validity of a statute when
an agency of government, as a defendant charged with enforcing the statute, agrees
with plaintiffs that the statute is . . . unconstitutional.” INS v. Chadha, 462 U.S. 919,
940 (1983).
Third, petitioner’s request that the Court overrule its precedents approving
independent agencies implicates Congressional reliance interests of the highest
order. In the eighty-five years since Humphrey’s Executor, the House and Senate
have repeatedly relied on that decision, creating numerous agencies with explicit forcause removal protections. Those agencies exercise a wide range of regulatory and
other authorities, and their independent status is deeply embedded in the structure
of our government. Overruling Humphrey’s Executor at this late date would thus
disrupt a settled understanding on which the House has repeatedly relied.
Fourth, the House has a vital interest in rebutting petitioner’s contention that
a constitutional flaw in the CFPB Director’s removal protection would require the
Court to abolish the CFPB altogether. Congress created the CFPB based on its
considered judgment that a single agency focused on consumer protection is essential
to curb abuses and prevent a recurrence of the regulatory failures that “led to what
has become known as the Great Recession.” S. Rep. No. 111-176, at 9-10 (2010).

3

3.

The House respectfully submits that its participation in the oral

argument would be of material assistance this Court. The question that petitioner
and the Solicitor General urge the Court to decide goes to the heart of the
Constitution’s allocation of authority between the Executive and Legislative
Branches. As half of the Legislative Branch, the House has a unique institutional
perspective on that question. The House is also uniquely positioned to address other
important issues in the case, including the extent to which Congress has relied on

Humphrey’s Executor and the questions of Congressional intent raised in the parties’
severability briefing. The House’s distinct perspective and insight on these issues
“would provide assistance to the Court not otherwise available.” Sup. Ct. Rule 28.7.
4.

In recent years, this Court has often permitted oral argument by

Chambers or Members of Congress as amici in cases implicating comparably
significant Congressional interests. See, e.g., Dep’t of Commerce v. New York, 139
S. Ct. 1543 (2019) (House); United States v. Texas, 136 S. Ct. 1539 (2016) (House);

NLRB v. Noel Canning, 134 S. Ct. 811 (2013) (Senators); McCutcheon v. FEC, 134
S. Ct. 41 (2013) (Senator); Citizens United v. FEC, 557 U.S. 952 (2009) (Senators);

Office of Sen. Mark Dayton v. Hanson, 549 U.S. 1335 (2007) (Senate).
That practice has deep roots. For many decades, this Court has regularly heard
from Congress or its Members during oral argument in cases of significance to the
Legislative Branch. In an example of particular relevance here, the Court invited
Senator George Pepper to brief and argue as amicus in defense of the removal
restriction challenged in Myers v. United States, 272 U.S. 52 (1926). See id. at 56; see

4

also, e.g., United States v. Lovett, 328 U.S. 303, 304 (1946) (noting argument by
Congress as amicus curiae in a challenge to a statute regarding federal employees);

Jurney v. MacCracken, 294 U.S. 125, 128 (1935) (noting argument by the House as
amicus in a case concerning Congress’s contempt power); The Pocket Veto Case, 279
U.S. 655, 673 (1929) (noting that a member of the Committee on the Judiciary of the
House was granted oral argument and aided the Court “by a comprehensive and
forcible presentation of arguments”).
5.

Hearing from the House of Representative—as part of a co-equal branch

of the Federal Government—is equally warranted here.

5

CONCLUSION
For the foregoing reasons, this Court should grant the House leave to
participate in the oral argument in this case as amicus curiae supporting the
judgment below and allocate it ten of the thirty minutes the parties have proposed to
allocate to the Court-appointed amicus.

Respectfully submitted,
Douglas N. Letter

General Counsel
Counsel of Record
Megan Barbero

Deputy General Counsel
Adam A. Grogg

Associate General Counsel
OFFICE OF THE GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Office Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov
Brian H. Fletcher
Pamela S. Karlan
STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305

January 21, 2020

6

